Pension Benefit Guaranty Corporation
   Office of Inspector General
           Audit Report




  Evaluation of PBGC Appropriation
Expenditures for Food, Entertainment
           and Mementos




          September 30, 1998
                                   98-5/23115
ABBREVIATIONS


CCRD      Contracts and Controls Review Department
CFC       Combined Federal Campaign
CFO       Chief Financial Officer
CFR       Code of Federal Regulations
CMO       Chief Management Officer
CN        Chief Negotiator
COO       Chief Operating Officer
DED       Deputy Executive Director
DOJ       Department of Justice
ERISA     Employee Retirement Income Security Act of 1974
FASD      Facilities and Services Department
FBA       Field Benefit Administrator
FOD       Financial Operations Department
GAO       United States General Accounting Office
GEIAA     Government Employees Incentive Awards Act
HRD       Human Resources Department
IOD       Insurance Operations Department
IRMD      Information Resources Management Department
IRS       Internal Revenue Service
OIG       Office of Inspector General
OGC       Office of the General Counsel
OPM       Office of Personnel Management
PAS       Premium Accounting System
PBGC      Pension Benefit Guaranty Corporation
RPA       Retirement Protection Act
Redbook   Principles of Federal Appropriation Law, Volumes I and II, United
          States General Accounting Office, Office of the General Counsel
          (GAO/OGC-91-5)
U.S.C.    United States Code




                                        i
                                                                    98-5/23115
               Evaluation of PBGC Appropriation Expenditures for
                      Food, Entertainment and Mementos
                            Audit Report 98-5/23115

                               EXECUTIVE SUMMARY

INTRODUCTION

        This report presents an evaluation of certain expenditures of the Pension Benefit
Guaranty Corporation (PBGC or the Corporation) for food, entertainment and mementos
in conjunction with various PBGC meetings and functions. The objective of our audit
was to identify the population of and circumstances surrounding expenditures made by
PBGC for food, entertainment and mementos occurring from October 1, 1994 through
June 30, 1996. Once identified, the expenditures were evaluated in relation to
applicable laws and regulations to determine if they were proper uses of appropriated
funds. Harper, Rains, Stokes & Knight, P.A. was engaged by the PBGC’s Office of
Inspector General (OIG) to perform the audit.


FINDINGS AND RECOMMENDATIONS

       PBGC reported expenditures, totaling $30,825, for food, entertainment and
mementos in conjunction with 37 meetings and functions that PBGC employees and
others attended during the period of our audit. We evaluated the propriety of these
expenditures in relation to relevant criteria (see pages 2 through 7) and identified
$17,121 (56 percent of the total dollar amount audited) as questionable under
applicable laws and regulations. We found questionable expenditures in 27 out of 37
PBGC meetings or functions during the audit period (see pages 7 to 9).

1.   PBGC improperly expended $16,138 for food, entertainment, and mementos.

        Expenditures for food, refreshments and mementos are generally not allowed
but may be made under certain well defined circumstances. One such circumstance is
the statutory authority provided by the Government Employees Incentive Awards Act (5
U.S.C. §§ 4501-4507), which allows agencies to expend appropriations on mementos to
be awarded to employees for job related achievements. Agencies may also provide
refreshments at ceremonies to present these awards to employees. During our
evaluation we identified certain expenditures made by PBGC which are questionable.

Awards and Ceremonies

         If an awards program does not conform to OPM regulations and PBGC policies,
it is not authorized under 5 U.S.C. §§ 4501-4507 and therefore no statutory authority
exists for providing mementos to employees or refreshments at related ceremonies. We
are questioning $9,333 expended for awards and entertainment because the
departments making the awards did not have non-monetary awards plans or they made
awards which were not contained in their approved plans (see pages 9 to 11).

Meetings and Conferences

        The “free food” rule generally precludes the use of appropriated funds to provide
food or refreshments to attendees at purely internal business meetings or conferences
sponsored by government agencies regardless of their location. We are questioning
$6,764 of expenditures made in conjunction with meetings and conferences held at and
away from PBGC headquarters at which PBGC employees and others were dealing with
PBGC operational matters (see page 12).


                                         ii
                                                                     98-5/23115
Training

       PBGC provided refreshments at seven customer service training courses.
Refreshment expenditures in conjunction with six of these courses were found to be
improper in Comptroller General Decision B-270199. We identified $41 of identical
expenditures for a seventh course which was not covered in Decision B-270199 and are
improper on the same basis as the first six courses (see page 13).

                                 Recommendation

       We recommend the following corrective action:

       The appropriate certifying officials should reimburse $16,138 to the
       Corporation. (OED-28)

2.     PBGC expended, without sufficient authority,
       $983 on food and refreshments for government-
       sanctioned campaign events and for private
       sector practitioner meetings.

Government-sanctioned campaigns

        PBGC expended $899 for food and refreshments provided to employees at
Combined Federal Campaign (CFC) and savings bond campaign ceremonies held at
PBGC headquarters. These campaigns are government-sanctioned events in which
federal agencies participate. Agencies are allowed to spend a reasonable amount of their
appropriations to support the campaigns such as permitting solicitation during working
hours, preparing campaign instructions, and providing and distributing promotional
materials. The official guidance that we reviewed did not explicitly provide authority for
refreshment expenditures in support of these campaigns. Given the general prohibition
of providing free food to government employees at headquarters, we find that these
expenditures are questionable under applicable laws and regulations (see pages 14 and
15).

Private Sector Practitioner Meetings

        In order to comply with an Executive Order mandating improved customer
service, PBGC conducted meetings, at which refreshments costing $84 were provided,
with private sector pension practitioners to obtain their views on PBGC's customer
service. The general prohibition of providing food applies to non-government, as well as
government personnel and we did not locate definitive guidance as to the allowability of
the refreshments provided by PBGC at these meetings. However, we found reference to
a Comptroller General Decision which indicated that the cost of a luncheon paid by a
quasi-public corporation to induce participation in a government program by private
sector persons was an appropriate expense. The facts surrounding PBGC's
expenditures may conform to this exception approved by the Comptroller General (see
page 15).




                                         iii
                                                                      98-5/23115
                               Recommendation

       We recommend the following corrective action:

       PBGC should seek authoritative guidance from the Comptroller General on the
       propriety of appropriation expenditures for refreshments provided at
       government-sanctioned campaign events and meeting with pension
       practitioners. If the Comptroller General disallows the expenditures, the
       appropriate certifying officials should reimburse the Corporation. (OED-29)

3.     PBGC’s obligations approval process for food
       and mementos should be strengthened.

       Internal control standards issued by GAO state, in part, that internal control
systems are to reasonably ensure that ... obligations and costs comply with applicable
law. We found that more than half of the expenditures made by PBGC for food and
mementos during the audit period were not proper uses of PBGC's appropriated funds.
Given the general prohibitions of such expenditures in applicable laws and regulations
and taking into account the visibility and sensitivity of these type of expenditures,
PBGC's internal controls over these expenditures should be strengthened (see page 16).

                              Recommendations

       We recommend the following corrective actions:

       PBGC should develop and distribute written guidance that specifically
       addresses the circumstances when PBGC funds can be expended on
       food and mementos. (OGC-34)

       PBGC should designate an appropriate high-level official to review and
       approve planned expenditures for food and mementos prior to obligation.
       (OGC-35)

       PBGC should seek guidance from the Comptroller General in situations in
       which clear guidance cannot be obtained from laws and regulations, prior
       to obligating appropriated funds for food and mementos. (OGC-36)

       PBGC should ensure that employees with responsibility for obligation and
       disbursement of PBGC's funds are properly trained regarding
       appropriations law. (FOD-273)

AGENCY COMMENTS and OIG EVALUATION

        A draft report was given to the Corporation for comment. PBGC provided an
overall response to the draft report which included two attachments: (1) a
memorandum waiving indebtedness to PBGC and (2) a memorandum concerning
PBGC's authority to waive erroneous payments. The full text of the response is
attached to the report (Tab 1).

        The agency generally agrees with the findings and recommendations in the
report. The memorandum waiving indebtedness to PBGC states that a debt is owed to
PBGC in the amount of $17,121 (Findings 1 and 2) for the reasons stated in the
referenced audit report; while the overall response states agreement with the four
recommendations of Finding 3.

      An analysis of PBGC's response is included after each finding and
recommendation.


                                       iv
                                                                    98-5/23115
              Evaluation of PBGC Appropriation Expenditures For
                      Food, Entertainment and Mementos
                           Audit Report 98-5/23115


INTRODUCTION

        The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was
established under Title IV of the Employee Retirement Income Security Act of 1974
(ERISA) as amended. PBGC is a government corporation that protects the pensions
of more than 42 million Americans in approximately 48,000 private single-employer
and 2,000 multiemployer defined benefit plans. PBGC states that its mission is to
operate as a service-oriented, professionally managed agency that protects
participants’ benefits and supports a healthy retirement plan system by:

        •   encouraging the continuation and maintenance of private pension
            plans,
        •   protecting pension benefits in ongoing plans,
        •   providing timely payments of benefits in the case of terminated pension
            plans, and
        •   making the maximum use of resources and maintaining premiums and
            operating costs at the lowest levels consistent with statutory
            responsibilities.

        At September 30, 1996, PBGC was trustee or in the process of becoming
trustee of 2,348 terminated pension plans. PBGC’s programs are financed by
revenues obtained from premiums paid by sponsors of covered pension plans,
assets from terminated plans that PBGC trustees, recoveries from sponsors formerly
responsible for the trusteed plans, and investment income.

OBJECTIVE

        The objective of our audit was to identify the population of and
circumstances surrounding expenditures made by PBGC for food, entertainment
and mementos occurring from October 1, 1994 through June 30, 1996. Once
identified, the expenditures were evaluated in relation to applicable laws and
regulations to determine if they were proper uses of appropriated funds.

SCOPE AND METHODOLOGY

        The Office of Inspector General (OIG) engaged Harper, Rains, Stokes &
Knight, P.A. to conduct the audit in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States. To meet our
objective, we asked PBGC to provide specific information about PBGC expenditures
for food, entertainment and mementos in conjunction with corporate meetings and
functions that took place during the period being audited. The information request
included meeting dates, times, locations, purposes, and attendees, as well as,
expenditure data including amounts, descriptions, and funding sources.
Additionally, we asked PBGC for legal opinions, and laws and regulations on which
they relied in determining that these expenditures of PBGC funds were proper.




                                       1
                                                                   98-5/23115
        Expenditures reported by PBGC excluded, for the most part, amounts paid
for items presented to employees as awards under PBGC’s non-monetary awards
program authorized under Title 5 Code of Federal Regulations (CFR), Part 451, and
implemented in PBGC Directive PM 20-2. PBGC management has represented to
the OIG that they are responsible for the fair presentation of the reported
expenditures of PBGC funds for food, entertainment and mementos from October 1,
1994 through June 30, 1996. They also represented that to the best of their
knowledge, all pertinent information regarding these expenditures has been made
available and that they have no reason to doubt the accuracy or completeness of the
expenditure information submitted.

        We performed certain procedures to test the completeness of the
expenditures reported by PBGC. These procedures included reviewing selected
financial records, interviewing personnel, reviewing documents and reports on
meetings and functions held by PBGC. These procedures were not sufficient in
scope to assure that all expenditures made by PBGC for food, entertainment and
mementos in conjunction with employee meetings that occurred during the period
October 1, 1994 through June 30, 1996 were identified. However, we did not locate
any significant amount of such expenditures which had not been reported to us.

EVALUATION CRITERIA

Laws and Regulations

         We identified laws and regulations that, in our opinion, contained relevant
criteria for determining whether the expenditures were proper uses of PBGC
appropriated funds. These laws and regulations were identified through discussions
with PBGC personnel, review of the CFR and publications of the United States
General Accounting Office (GAO) and other appropriate documents as required.

        Laws and regulations governing use of appropriated funds for food,
entertainment and mementos come from several sources and are listed below.

       •   PBGC’s authorizing legislation (ERISA) and yearly appropriation;
       •   Appropriations laws which are summarized in Principles of Federal
           Appropriation Law, Volumes I and II, United States General Accounting
           Office, Office of General Counsel (GAO/OGC-91-5 and GAO/OGC-92-13);
       •   Comptroller General Decisions concerning availability of appropriated
           funds for specific purposes;
       •   Government Employees Incentive Award Act (5 U.S.C. §§ 4501-4507) and
           Office of Personnel Management (OPM) implementing regulations (5 CFR
           Part 451);
       •   Government Employees Training Act (5 U.S.C. §§ 4109-4110) and OPM
           implementing regulations (5 CFR Part 410);
       •   OPM implementing regulations for the Combined Federal Campaign
       •   (5 CFR Part 950);
       •   Certain travel regulations in 41 CFR Part 301-7, Per Diem Allowances;
           and
       •   Executive Order 12862, Setting Customer Service Standards.




                                        2
                                                                    98-5/23115
PBGC Directives

        PBGC maintains a directives system which formally communicates required
actions and provides information essential to effective administration and operation
of PBGC’s programs. Directives that may affect availability of PBGC appropriations
for specific purposes include:

       •   PBGC Systems for the Requisition of, Acquisition of and Payment for
           Goods and Services (Directive FM 15-1, effective 6/1995);
       •   Obligating Procedures for PBGC Procurements (Directive FM 15-2,
           effective 8/1993);
       •   Revolving Fund Reimbursement by the Trust Fund (Directive FM 05-3,
           effective 12/1988)
       •   Delegation Authority to Approve Certain Financial Transactions
           (Directive GA 05-4, effective 9/1995);
       •   The PBGC Imprest Fund (Directive FM 05-6, effective 4/1990);
       •   PBGC Travel Policies and Procedures (Directive GA 10-5, effective
           8/1996);
       •   Incentive Awards Directive (Directive PM 20-2, effective 12/1995 replaced
           PM 40-1, effective 10/1986), and
       •   Training Policy and Procedures (Directive PM 25-2, effective 10/1993).

PBGC's Role as Guarantor and Trustee

        Our identification took into account PBGC's dissimilar duties as guarantor
and trustee and the effect that these dissimilar duties might have on the laws and
regulations governing the expenditures. The Comptroller General in Matter of:
Pension Benefit Guaranty Corporation's Use of Contingent Fee Arrangement With
Outside Counsel, B-223146 (1986) describes these fundamentally different duties.

       On the one hand, PBGC serves in its corporate capacity as an insurer of
       the plans covered under the laws it administers. 20 U.S.C. § 1305.
       When acting in this capacity, its costs are financed through revolving
       funds. 29 U.S.C. § 1305(b)(2)(D). When performing non-trust-related
       functions funded out of the revolving fund, PBGC is subject to
       provisions of law applicable to wholly-owned Government
       corporations....

       On the other hand, the law vests in PBGC the power to serve as trustee
       for terminated plans. 29 U.S.C. § 1342. When serving as trustee for a
       terminated plan, PBGC is serving primarily the interest of the pension
       participants and beneficiaries of the plan in the same manner and to
       the same degree as a nongovernmental party appointed to the same
       position. 29 U.S.C. § 1342 (d)(1)(A)(i)....

       When serving in its trustee capacity, PBGC is treated as if it were a
       private fiduciary acting on behalf of the third party beneficiaries and
       possesses the same authority and duty to act as would a
       nongovernmental party if it were appointed to that position. Thus, the
       laws applicable to expenditure of appropriated funds ... do not apply to
       PBGC when it is acting in its trustee capacity and is funded out of trust
       funds transferred to it in order to perform the duties of a trustee under
       ERISA....

       Finally, when PBGC serves as trustee for plans its reasonable expenses
       in administering, preserving or otherwise managing the plan for the
       benefit of the participants ... are properly chargeable to trust assets....


                                         3
                                                                       98-5/23115
       To facilitate the payment of trust expenses, PBGC Directive FM 05-3,
Revolving Fund Reimbursement by the Trust Fund, states at page 1 that "all
payments for expenses emanating from PBGC are to be made from the Revolving
Fund." " ... the Trust Fund will reimburse the Revolving Fund for expenses
applicable to the Trust Fund."

Principles of Federal Appropriations Law

       Appropriation Availability and the Necessary Expense Doctrine

       Principles of Federal Appropriations Law, Volume 1, United States General
Accounting Office, Office of the General Counsel (GAO/OGC-91-5) (the Redbook)
introduces the concept of appropriation “availability” which refers to whether a given
appropriation is legally available for a specified use. Legal availability of an
appropriation depends on the following three items (Redbook at 4-2):

        1. The purpose of the obligation or expenditure must be authorized;
        2. The obligation must occur within the time limits applicable to the
           appropriation; and
        3. The obligation and expenditure must be within the amounts Congress
           has established.

         All three of these elements must be observed for a given expenditure or
obligation to be legal (Redbook at 4-2). However, Item 1, availability as to purpose,
is of primary importance relative to the expenditures evaluated in this audit.

       The Redbook at 4-2 cites 31 U.S.C. 1301(a) as a fundamental statute
governing the use of appropriated funds. This statute states:

       Appropriations shall be applied only to the objects for which the
       appropriations were made except as otherwise provided by law.

       The basic concept of this statute is that the wording of the appropriation act,
and the program legislation it funds, governs the purposes to which the
appropriation can be applied. The statute does not require that every item of
expenditure be specified in the appropriation act and allows the spending agency
reasonable discretion in determining how to carry out the objective of the
appropriation. This concept of reasonable discretion is known as the "necessary
expense doctrine” (Redbook at 4-15). Justification under the necessary expense
doctrine requires that an expenditure meet the following three tests (Redbook at 4-
16). The expenditure must:

       1. Bear a logical relationship to the appropriation sought to be
          charged;
       2. Not be prohibited by law; and,
       3. Not be funded through another appropriation or statutory
          funding method.

        The Redbook at 4-16 states that the necessary expense doctrine does not
require that an expenditure be so critical that the object of the appropriation could
not possibly be achieved without it. The doctrine does, however, require an
expenditure to be more than desirable or even important. For example, an
expenditure cannot be justified merely because an agency official thinks it is a good
idea. The true measure of an expenditure is not its individual significance, value to
the government or some social purpose, but the degree to which it helps achieve the
purpose of the funding appropriation. (See generally, Redbook at 4-16.) Without
statutory authority or an adequate justification under the necessary expense
doctrine, an expenditure is illegal (Redbook at 4-20).

                                         4
                                                                      98-5/23115
       Entertainment and Gifts

         Expenditures evaluated in this audit were primarily for food and mementos
provided to PBGC employees and non-government personnel in conjunction with
various corporate events. Improper expenditures of this nature are considered to be
entertainment or personal gifts. The Redbook at 4-84 defines entertainment as an
“umbrella” term encompassing food and drink either as formal meals or as snacks
and refreshments; receptions, banquets and the like; music, live or recorded; live
artistic performances; and recreational facilities.

        The Redbook explains the rule that appropriated funds may not be used for
entertainment except under specific statutory authority and with approval by proper
administrative officers. Entertainment is considered to be essentially a personal
expense that is not normally necessary to carry out the purposes of an
appropriation. In Matter of: United States Trade Representative - Use of Reception
and Representation Funds, B-223678 (1989), Redbook at 4-82, explains the basis
for this rule.

       The theory is not that these items can never be business related
       because sometimes they clearly are. Rather, what the decisions are
       really saying is that, because public confidence ... is essential, certain
       items which may appear frivolous or wasteful - however legitimate they
       may in fact be in a specific context - should, if they are to be charged to
       public funds, be authorized specifically by the Congress.

         The Redbook at 4-128 also states that absent statutory authority,
appropriated funds cannot be used for personal gifts or mementos. Most
Comptroller General decisions have used the necessary expense doctrine to evaluate
these expenditures and have found that items in the nature of gifts can rarely be
justified. The rule prohibiting the use of appropriated funds for personal gifts
reflects the clear potential for abuse and the impossibility of drawing a rational line.

       “Free Food” Rule

       The Redbook at 4-84 states that as a general rule paying subsistence or
providing free food to government employees at their official duty stations is not a
proper use of appropriated funds. This “free food” rule applies to snacks as well as
meals and refreshments. The Redbook at 4-100 further explains that this rule also
makes the entertainment of non-government personnel impermissible:

       The basic rule is the same regardless of who is being fed or
       entertained: Appropriated funds are not available for
       entertainment, including free food, except under specific statutory
       authority.

       The Redbook discusses certain well-defined exceptions to the rules
prohibiting food and gifts to government employees. These exceptions include
statutory authority to:

       •   pay for the expenses, including meals, of civilian personnel traveling on
           official business (5 U.S.C. § 5702);
       •   pay for employee meals at meetings where attendance is authorized
           under 5 U.S.C. § 4110;
       •   pay or reimburse employees for meals in conjunction with training
           courses if the agency determines that providing meals is necessary to
           achieve the objectives of the training program (5 U.S.C. § 4109); and


                                          5
                                                                       98-5/23115
       •   provide monetary and non-monetary awards to employees who display
           exemplary performance in execution of duties related to their official
           employment. This Act also permits agencies to use appropriations to
           provide entertainment at awards ceremonies. (Government Employees
           Incentive Awards Act at 5 U.S.C. §§ 4501-4507)

        In discussing the authority for provision of meals to employees at authorized
meetings and conferences, the Redbook at 4-89 makes it clear that this is a strict
authority, applying only in certain circumstances, and states the following three
part test should be used to determine whether a separate charge for meals may be
paid for with an appropriation:

       1. The meals are incidental to the meeting,
       2. Attendance of the employee at the meals is necessary to full participation
          in the business of the meeting, and,
       3. The employee is not free to take the meals elsewhere without being absent
          from essential formal discussions, lectures or speeches concerning the
          subject of the conference.

        If these criteria are not met, the government is not authorized to pay for the
meal. These criteria were used by the Comptroller General in Matter of: Pension
Benefit Guaranty Corporation - Provision of Food to Employees B-270199 (August 6,
1996) in deciding that appropriated funds were not available to purchase food for
PBGC employees at PBGC training sessions. These rules apply whether the meeting
takes place at the employee's official duty station area or someplace else. When
these rules apply to an employee on travel or temporary duty status, the employee's
per diem must be reduced by the value of the meals provided (41 CFR § 301-
7.12(a)(2)). It is noted that this exception generally does not apply to agency
sponsored meetings which are normally subject to the prohibition of furnishing free
food to employees at their official duty stations.

       Government-Sanctioned Campaigns

       The Redbook at 4-26 also discusses appropriation expenditures in
conjunction with government-sanctioned campaigns such as the Combined Federal
Campaign (CFC) and the United States savings bond campaign. An agency may
expend a reasonable portion of its appropriation in support of the CFC including
such things as permitting solicitation during working hours, preparing campaign
instructions and distributing campaign materials. The Office of Personnel
Management (OPM) prescribes implementing regulations for agency participation in
the CFC which are found at 5 CFR Part 950. The Redbook at 4-26 also states that
an agency may use its general operating appropriation to fund limited amounts of
promotional material in support of the United States savings bond campaign.




                                         6
                                                                      98-5/23115
       Accountability

         An accountable officer is defined in the Redbook at 9-8 as "any government
officer or employee who by reason of his or her employment is responsible for or
has custody of government funds" and states that "the legal liability of an
accountable officer arises automatically by virtue of the loss and is not affected by
lack of fault or negligence on the officer's part .... "

       Accountability for public funds in civilian agencies rests primarily
       with the certifying officer, a government officer or employee whose
       job is or includes certifying vouchers (including voucher schedules
       or invoices used as vouchers) for payment.... In brief, certifying
       officers are responsible for the legality of proposed payments, and
       are liable for the amount of illegal or improper payments resulting
       from their certifications (Redbook at 9-8).

      The Redbook further defines and discusses the accountability for
public funds.

       Accountability for public funds in civilian agencies rests primarily
       with the certifying officer ... whose job is or includes certifying
       vouchers ... for payment (Redbook at 9-8).

       For purposes of accountability, "public funds" consists of three
       categories: appropriated funds, funds received by government from
       nongovernment sources, and funds held in trust (Redbook at 9-14).

       When the government holds private funds in a trust capacity, it is
       obligated, by virtue of its fiduciary duty, to pay over those funds to
       the rightful owners at the proper time. Thus, although the funds
       are not appropriated funds, they are nevertheless accountable
       funds (Redbook at 9-20).

AUDIT RESULTS

        We evaluated the propriety of the identified expenditures provided by PBGC
and analyzed the nature and extend of each expenditure in relation to the criteria
obtained from laws and regulations. The majority of our analysis involved the
application of the “necessary expense” doctrine as discussed in the Redbook at
4-16 that states that a precise formula for determining the application of the
necessary expense rule has never been established due to the vast differences
among agencies. Any such determination must essentially be made on a case-by-
case basis and frequently involves subjective evaluation of the relationship of a
specific expenditure to the purposes of the appropriation sought to be charged. In
addition, authority for determining whether a given expenditure is appropriately
chargeable to an appropriation rests with the Comptroller General of the United
States.




                                         7
                                                                       98-5/23115
        For the expenditure types that the Comptroller General has issued similar
decisions, we are recommending that the appropriate certifying officials reimburse
the Corporation for the questioned funds as required by law. Where the Comptroller
General has not issued a decision regarding the particular expenditure type (e.g.,
expenditures for food served at meetings with private sector participants and at CFC
or savings bond functions), we have applied relevant Comptroller General decisions
and the Redbook analysis and are recommending that PBGC seek an authoritative
determination from the Comptroller General. We have concluded that, while
reasonable expenditures from the Trust Funds are exempted from certain laws and
regulations, the expenditures evaluated in this audit are subject to the federal
appropriations laws. We have also concluded that the appropriate certifying officers
are liable for reimbursement of the funds because they are accountable for all
public funds.


                                        EXHIBIT 1
                        APPROPRIATION EXPENDITURES FOR FOOD,
                            ENTERTAINMENT AND MEMENTOS
                              For the Period October 1, 1994
                                  through June 30, 1996

Expenditure                   Number Of             Total            Number Of         Questioned
Category                     Functions and       Expenditures        Functions         Expenditures
                               Meetings            Audited             With
                               Audited                               Questioned
                                                                    Expenditures

Awards and                          20                $22,922             12            $ 9,333
ceremonies

Meetings1 and                       6                   6,764              6              6,764
Conferences

Training2                           1                     47               1                  41

Government-
sanctioned                          8                  1,008               6                 899
campaigns

Practitioner Meetings                2                    84               2                  84

Total                               37                $30,825             27            $17,121



        As shown in the exhibit, PBGC management reported expenditures, totaling
$30,825, for refreshments and mementos in conjunction with 37 meetings and
functions that PBGC employees and others attended during the period of our audit.
Based on PBGC provided information, we summarized the reported expenditures
into the following Expenditure Categories: (1) Awards and Ceremonies, (2) Meetings
and Conferences, (3) Training, (4) Government-sanctioned Campaigns or (5) Private
Sector Practitioner Meetings.


1PBGC management reported expenditures related to 14 meetings and functions. The meetings
category has been reduced for expenditures associated with six of the functions totaling $232 of
improper expenditures that the OIG previously reported to management.

2PBGC management reported expenditures related to 12 training functions. The training category
has been reduced for expenditures associated with 11 of the events totaling $853 which were
determined to be improper by the Comptroller General in Matter of Pension Benefit Guaranty
Corporation - Provision of Food to Employees, B-270199 (August 6, 1996).

                                                  8
                                                                                     98-5/23115
         We evaluated the propriety of these expenditures in relation to relevant
criteria (see pages 2 through 7) and identified $17,121 (56 percent of the total dollar
amount audited) as questionable under applicable laws and regulations. In 27 out
of 37 PBGC meetings and functions during the period audited we found
questionable expenditures. These questioned expenditures are primarily for meals,
refreshments and mementos purchased in conjunction with PBGC-sponsored events
which do not meet the criteria for exemption from the general prohibitions of
providing entertainment and personal gifts as defined in applicable laws and
regulations and the necessary expense doctrine.


FINDINGS AND RECOMMENDATIONS

1.   PBGC improperly expended $16,138 for
     food, entertainment, and mementos.

        An expenditure is proper when it is made under specific statutory authority
or a relationship is established that makes the expenditure “necessary” to achieve
the purposes of a given appropriation. Absent such specific authority or the
“necessary” relationship, a given expenditure is an improper use of an
appropriation.

        In the case of expenditures for employee awards and related ceremonies, the
Government Employees Incentive Award Act (5 U.S.C. §§ 4501-4507) authorizes
agencies to pay a cash award to, and incur necessary expense for, the honorary
recognition of employees. The Act also provides that an award may take a form
other than cash. Under this statutory authority, GAO has held that refreshments at
an agency awards program can qualify as a “necessary” expense. Finally, the Act
authorizes OPM to prescribe regulations (5 CFR Part 451) and instructions to
agencies. 5 CFR § 451.104(a) states:

       An agency may grant a cash, honorary, or informal recognition
       award ... to an employee as an individual or member of a group,
       on the basis of (1) a suggestion, invention, superior
       accomplishment ... or other personal effort that contributes to the
       efficiency, economy, or other improvement of Government
       operations ...; and (2) a special act or service in the public interest
       in connection with or related to official employment.

       5 CFR § 451.102 defines an awards program as the specific procedures and
requirements established by an agency or a component of an agency for granting
awards under 5 U.S.C. §§ 4501-4507. PBGC’s awards program is implemented
primarily through its directives.




                                          9
                                                                        98-5/23115
       Awards and Ceremonies

       A. No Authorized Awards Plan

       The expenditures listed below were made in conjunction with six functions,
and are questioned because the PBGC departments which paid for the items had
not prepared and filed non-monetary awards plans with the PBGC's Human
Resources Department (HRD) as required by PBGC's directives and procedures.
PBGC departments are encouraged to develop non-monetary awards programs
which should include a description of the planned recognition type and awards and
the nomination criteria for recognition.


Function                Date         Department    Item                 Amount

Clean audit opinion     04/10/95     DED/CFO        Refreshments         $     775
PAS completion          02/21/96     DED/CFO        Refreshments               323
PAS completion          02/21/96     DED/CFO        35 Shoulder bags         1,267
New Valley settlement   11/22/94     DED/COO        72 T-shirts                331
New Valley settlement   11/22/94     DED/COO        Refreshments               491
RPA passage             12/08/94     FASD           Refreshments               782
RPA passage             12/08/94     FASD           Coffee mugs &            1,042
                                                    framed documents
Record cleanout         06/22/95     FASD           Refreshments                 88
campaign
Hammer award receipt    10/26/94     IOD            Refreshments              74
Total                                                                    $ 5,173




        We note that the Financial Operations Department (FOD), who reports to
the Chief Financial Officer (CFO), submitted non-monetary awards plans
containing descriptions of planned recognitions which were similar to the clean
audit opinion and PAS completion. However, the number of employees to be
recognized and the amounts to be expended were much less than the amounts
spent by the CFO. In addition, the budgetary source of funds was the CFO and
not FOD. 5 CFR § 451.103 states that "Agency award programs must provide
for obligating funds consistent with applicable agency financial management
controls and delegations of authority."

        We further note that documentation submitted by PBGC for the “New
Valley settlement” indicates that the “New Valley Team” to be recognized
consisted of 23 employees; however, 71 adult size and one infant size T-shirts
were purchased.




                                       10
                                                                    98-5/23115
        B. No Authorized Awards Criteria

       In addition, the following expenditures are questioned because these
awards, and the criteria for the awards, were not contained in the awards plans
submitted by the departments to HRD for approval.


Function                Date         Department      Item                     Amount

Records cleanout         06/10/96    FASD            Refreshments            $        50
campaign
Reorganization           10/31/95    IOD             355 T-shirts                1,822
anniversary
Extra recognition        12/08/95    IOD             68 athletic event           1,948
                                                     tickets
Job Enrichment           06/05/95    HRD             Continental                  285
Forum                                                breakfast
Facilitator training     03/29/95    HRD             Refreshments                  25
Facilitator training     08/01/95    HRD             Refreshments                  30
Total                                                                         $ 4,160




        PBGC's policies and procedures encourage each department to develop a
non-monetary awards program. This program should include a description of the
planned recognition and awards and the nomination criteria for recognition. The
items listed above are questioned because they were not included as planned
recognition and awards in the departments' awards programs.

         Moreover, IOD's costs for recognition of its reorganization anniversary are
further questioned because this does not meet the criteria for an award to
employees as defined at 5 CFR § 451.101. The IOD recognition is celebrating an
event, rather than rewarding specific employees for an achievement related to
official employment.

        In addition, the IOD documentation explaining the purchase of 68 athletic
event tickets indicates that the tickets were “special act” awards given to several
employees deserving of recognition that were not provided for in IOD's non-
monetary awards program. While we do not dispute that the employees deserved
recognition, we find that this is an improper appropriation expenditure. The
purchase of additional awards not only violated IOD's non-monetary awards
program, therefore not in compliance with statutory and agency requirements, but
IOD also augmented its non-monetary awards program with funds that had been
granted for another budgetary purpose.




                                         11
                                                                         98-5/23115
       Meetings and Conferences

       The expenditures listed below were made in conjunction with six
functions, and are questioned because "free food" was provided at internal
business meetings or conferences.


Function                        Date         Department     Item            Amount

FBA conference -                09/06/95     IOD          Continental        $ 2,138
Washington, DC                                            Breakfasts
FBA conference -                03/06/96     IOD          Continental          4,177
Atlanta, GA                                               Breakfasts
Executive planning conference   12/06/95     IOD          Refreshments           195
Area representative meeting     03/23/95     IRMD         Lunch                  123
Steering committee meeting      04/10/95     IRMD         Refreshments            47
Project meeting                 04/19/95     IRMD         Lunch                   84
Total                                                                        $ 6,764



        The Redbook states that the “free food” rule generally precludes the use of
appropriated funds to provide food or refreshments to attendees at purely internal
business meetings or conferences sponsored by government agencies, regardless of
their location.

         The Redbook also indicates that merely conducting a meeting or conference
away from headquarters does not change the agency’s ability to provide food or
refreshments to participants. When employees and contractors are traveling on
official business, agencies pay for the travel expenses including meals because there
is specific statutory authority to do so at 5 U.S.C. 5702. Thus, when an employee's
or contractor's official business is attendance at a conference or meeting, meals are
paid for as part of the travel expenses. The government pays for food at a
conference if it is a "necessary expense, "e.g., when the meal occurs during a
continuation of the conference, such as a guest speaker. This exception is not
applicable here. See In Matter of: Pension Benefit Guaranty Corporation - Provision
of Food to Employees, B-270199 (August 6, 1996). In cases where meals are
provided at government expense to employees and contractors in travel status, the
per diem paid must be reduced by the value of the meals provided (41 CFR § 301-
7/12(a)(2)).

        We conclude that the refreshments provided at meetings conducted at PBGC
headquarters are inappropriate. Likewise, we conclude that the continental
breakfasts and refreshments provided at meetings and conferences away from PBGC
headquarters are inappropriate. In addition, PBGC has indicated that it is assumed
that meeting participants in travel status did not reduce their daily per diem for the
value of the meals provided. In this case, the Corporation has paid twice for these
meals: first, through payment of the direct charge and second, through payment of
the participants' per diem.




                                        12
                                                                         98-5/23115
       Training

        During 1995, PBGC provided refreshments at seven customer service
training courses. Refreshment expenditures in conjunction with six of these
courses were found to be improper by the Comptroller General, In Matter of:
Pension Benefit Guaranty Corporation - Provision of Good to Employees, B-270199.
The $41 presented below represents identical expenditures for the seventh course
which was not covered in the Comptroller General's decision.


Function                  Date         Department     Item                    Amount
Basic customer service   07/11/95      HRD            Refreshments             $  41
training



        These expenditures are improper on the same basis as the first six
training courses. In the PBGC decision, the Comptroller General concluded that
appropriated funds were not available for the purchase of food for government
employees at PBGC training sessions.


                                Recommendation

       We recommend the following corrective action:

       The appropriate certifying officials should reimburse $16,138 to the
       Corporation. (OED-28)


AGENCY COMMENTS and OIG EVALUATION

       The agency agrees that a debt of $17,121 ($16,138 in this finding and
$983 in Finding 2) is owed to PBGC. However, instead of seeking
reimbursement from the certifying officials, PBGC has elected to waive the
indebtedness. PBGC states that it is relying on its "sue or be sued" waiver
authority under ERISA § 4002(b)(1). PBGC used the criteria of 5 U.S.C. § 5584
to waive the indebtedness to PBGC.

       OIG confirms that the indebtedness of $16,138 has been waived.




                                        13
                                                                      98-5/23115
2.     PBGC expended, without sufficient authority,
       $983 on food and refreshments for
       government-sanctioned campaign events and
       for private sector practitioner meetings.

       Government-sanctioned campaigns

       The following expenditures made in conjunction with six functions are
questioned because we found no specific authority for an agency to provide food to
its employees in support of these campaigns.


Function                       Date          Department   Item           Amount

CFC Wrap-up (1994)             12/03/94      IRMD         Refreshments     $  84
CFC Wrap-up (1995)             12/18/95      CN           Lunch              178
Savings bond kick-off (1995)   05/08/95      FASD         Refreshments       250
Savings bond wrap-up (1995)    07/25/95      FASD         Refreshments       139
Savings bond kick-off (1996)   03/26/96      CCRD         Refreshments       162
Savings bond wrap-up (1996)    05/14/96      CCRD         Refreshments        86
Total                                                                      $ 899



       The CFC and savings bond campaigns are government-sanctioned events in
which federal agencies participate. In discussing the availability of appropriations
to support these campaigns, the Redbook at 4-26 states:

       Agencies may spend their appropriations, within reason,
       to cooperate with government-sanctioned charitable fund-
       raising campaigns, including such things as permitting
       solicitation during working hours, preparing campaign
       instructions and distributing campaign materials.

The Redbook at 4-26 further provides that: "An agency may use its general
operating appropriations to fund limited amounts of promotional material" in
support of the United States savings bond campaign.

        The Redbook does not specifically discuss the allowability of providing food
and refreshments at these events. We therefore researched the Comptroller General
decisions, and the regulations at 5 CFR Part 950 which govern agency participation
in the CFC.

        Section 950.602 of 5 CFR states that agencies are encouraged to have kick-
off and wrap-up ceremonies to promote employee participation in the CFC; however,
provision for food and refreshments is not explicitly mentioned as an authorized
expenditure. There are several Comptroller General decisions addressing the
propriety of expenditures for CFC, two of which are discussed below.

        In Matter of: IRS Purchase of T-Shirts for Employees Contributing Certain
Amounts to the Combined Federal Campaign, 70 Comp. Gen. 248 (1991), the IRS
purchased T-shirts with appropriated funds to give to employees who contributed to
the CFC. Analyzing the expenditure under both the Incentive Awards Program and
the necessary expense doctrine, the Comptroller General concluded that the
expenditure was improper, stating "we are not convinced that purchasing personal
items for individual employees is an integral and necessary part of supporting the
CFC" (70 Comp. Gen. at 248). Food, as established above, has been held by the
Comptroller General to be a personal expense. The Comptroller General did not
foreclose all CFC expenditures, however, and stated "reasonable expenditures of

                                        14
                                                                     98-5/23115
appropriated funds are permissible," as there are "legitimate elements of agency
support for the CFC, e.g., fostering an atmosphere conducive to convenient giving"
(70 Comp. Gen. at 248).

        In a later decision, Matter of: Expenditures by the Department of Veterans
Affairs Medical Center, Oklahoma City, Oklahoma, B-247563 (Dec. 11, 1996), the
Comptroller General was asked whether the agency could spend appropriated funds
for forks, cups and napkins for a “ceremony to recognize associates and key workers
for a successful effort in the annual CFC.” In addressing this particular
expenditure, the Comptroller General stated, “[s]ince the Medical Center’s reception
was an inclusive, “victory” event, we do not object to its use of a limited amount of
appropriated funds to purchase necessary items.”

       The Comptroller General’s “free food” rule and the necessary expense
doctrine would appear to preclude expenditures for food, however, without
addressing the specific issue, the Veterans Affairs decision could be read to approve
such expenditures. To resolve this issue, therefore, it would be prudent for PBGC to
seek an advisory opinion from the Comptroller General regarding spending
appropriated funds for food served at government-sanctioned fundraising
campaigns.

        Private Sector Practitioner Meetings

        We were unable to locate definitive guidance as to the allowability of
refreshments provided at the following meetings PBGC employees held with private
sector pension practitioners.


 Function               Date           Department    Item                      Amount

 Practitioners group-   06/26/95       CMO           Refreshments                $ 49
 Washington, DC
 Practitioners group-   06/05/95       CMO           Refreshments                  35
 Newport, RI
  Total                                                                          $ 84



       Documentation for these expenditures indicates that these meetings were
held with private sector pension practitioners in order to comply with an Executive
Order mandating improved customer service. During the meetings, PBGC
employees requested information from the attendees regarding their dealings with
PBGC as a means for identifying ways to improve customer service.

        The general prohibition of providing food applies to non-government, as well
as government personnel. However, we also found a reference in Comptroller
General Decision B-45702 to another Comptroller General Decision B-35602 which
indicated that the cost of a luncheon paid for by a quasi-public corporation to
induce participation in a government program by private sector persons was an
appropriate expense. In that decision, GAO states:

        ...if it be administratively determined by the Board of Directors
        that the expenditures referred to in your submission are essential
        to carry out effectively the authorized functions of the Corporation
        this office will interpose no objection to the use for that purpose
        of funds available to the Corporation for its administrative
        expenses.



                                         15
                                                                      98-5/23115
       It is evident that the meetings ... were to be participated in
       principally by members of the public, having no official
       connection with the Federal service, for the purpose of obtaining
       their assistance and cooperation in the prosecution of a program
       of the government.

       The facts surrounding PBGC's expenditures may conform to this exception
approved by the Comptroller General.

                                Recommendation

       We recommend the following corrective action:

       PBGC should seek authoritative guidance from the Comptroller General on
       the propriety of appropriation expenditures for refreshments provided at
       government-sanctioned campaign events and meetings with pension
       practitioners. If the Comptroller General disallows the expenditures, the
       appropriate certifying officials should reimburse the Corporation.
       (OED-29)


AGENCY COMMENTS and OIG EVALUATION

         The agency agrees that a debt of $17,121 ($983 in this finding and
$16,138 in Finding 1) is owed to PBGC. However, instead of seeking
authoritative guidance from the Comptroller General and seeking
reimbursement from the certifying officials if the Comptroller General disallowed
the expenditures, PBGC has elected to waive the indebtedness. PBGC states
that it is relying on its "sue or be sued" waiver authority under ERISA §
4002(b)(1). PBGC used the criteria of 5 U.S.C. § 5584 to waive the indebtedness
to PBGC.

       OIG confirms that the indebtedness of $983 has been waived.


3.     PBGC’s obligations approval process for food
       and mementos should be strengthened.

        Standards for Internal Controls in the Federal Government issued by GAO states,
in part, that "Internal control systems are to reasonably ensure that ... obligations and
costs comply with applicable law." The third general internal control standard states, in
part, that "Managers and employees ... are to maintain a level of competence that allows
them to accomplish their assigned duties...."

        We found that more than half of the expenditures made by PBGC for food and
mementos during the audit period were not proper uses of PBGC's appropriated funds.
We note that the total dollar value of the expenditures for food and mementos would be
considered insignificant when compared to PBGC's total expenditures for this period.
However, given the general prohibitions of such expenditures in applicable laws and
regulations and taking into account the visibility and sensitivity of these type of
expenditures, PBGC's processing controls over these expenditure types should be
strengthened.




                                        16
                                                                     98-5/23115
                            Recommendations

     We recommend the following corrective actions:

     PBGC should develop and distribute written guidance that specifically
     addresses the circumstances when PBGC funds can be expended on
     food and mementos. (OGC-34)

     PBGC should designate an appropriate high-level official to review and
     approve planned expenditures for food and mementos prior to obligation.
     (OGC-35)

     PBGC should seek guidance from the Comptroller General in situations in
     which clear guidance cannot be obtained from laws and regulations, prior
     to obligating appropriated funds for food and mementos. (OGC-36)

     PBGC should ensure that employees with responsibility for obligation and
     disbursement of PBGC's funds are properly trained regarding
     appropriations law. (FOD-273)


AGENCY COMMENTS and OIG EVALUATION

    The response states agency agreement with the recommendations.




                                     17
                                                                  98-5/23115
